                                    UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL
                                   May 7, 2014




MEMORANDUM TO:              Mark A. Satorius
                            Executive Director for Operations




FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S CYBER SECURITY INSPECTION
                            PROGRAM FOR NUCLEAR POWER PLANTS
                            (OIG-14-A-15)


The Office of the Inspector General (OIG) conducted this audit to determine the
adequacy of the Nuclear Regulatory Commission’s (NRC) cyber security inspection
program for nuclear power plants. Through interviews with NRC staff, analysis, and
direct observation, OIG auditors determined that NRC has adequate management
controls in place for the cyber security inspection program. Therefore, OIG makes no
recommendations.

BACKGROUND

NRC’s Role in Power Plant Cyber Security Oversight

Cyber threats to NRC licensees are dynamic and multi-dimensional due to the
continuously evolving capabilities of potential adversaries and emerging technologies.
Potential adversaries run the gamut from nation-state actors to individuals. Recent
threats against international nuclear facilities, such as Stuxnet and Duqu, are examples
of malware specifically targeting control systems that operate industrial facilities, such
as nuclear power plants.
                               Audit of NRC’s Cyber Security Inspection Program for Nuclear Power Plants



The purpose of cyber security is to detect and then eliminate or mitigate vulnerabilities
in digital systems that could be exploited either from outside or inside of a plant’s
protected area. Licensees operating a nuclear power plant are required to provide high
assurance that digital computer and communication systems and networks are
adequately protected against cyber-attacks in accordance with 10 Code of Federal
Regulations 73.54, which is also known as the “Cyber Security Rule.”

In January 2013, NRC issued Temporary Instruction 2201/004 and began cyber
security inspections of nuclear power plants in accordance with the Cyber Security
Rule. The Cyber Security Rule required nuclear power plants licensed by NRC to
submit a Cyber Security Plan with a proposed implementation schedule to the
Commission for review and approval. However, the rule did not mandate an effective
date for implementation of licensees’ cyber security programs. As a result, NRC staff
worked with the nuclear power industry to develop seven interim implementation
milestones (i.e., Milestones 1-7) based on organizational and technical security
controls to be used while licensees prepare for full implementation, which NRC and
licensees commonly refer to as “Milestone 8.” NRC expects licensees to implement
their respective Milestone 8 cyber security programs beginning in late calendar year
2014 through the end of calendar year 2017. NRC’s Milestone 8 inspections will occur
on a rolling basis as licensees come into full compliance with their regulatory
commitments.

The Cyber Security Directorate of the Office of Nuclear Security and Incident
Response oversees activities related to the cyber security inspection of NRC
licensees, which are managed at the regional level. Headquarters staff and security
risk analysts provide support to inspectors based in NRC’s four regional offices.
Cyber security specialists under contract to NRC serve as technical advisors to the
NRC teams and assist with some inspection tasks.


NRC Interim and Full Implementation Cyber Security Inspections

In January 2013, NRC issued Temporary Instruction 2201/004 and staff began cyber
security inspections at nuclear power plants using Temporary Instruction guidance that
was developed specifically for assessing licensees’ interim cyber security programs
according to Milestone 1-7 criteria. NRC inspection teams spend two separate weeks
onsite at nuclear power plants for each cyber security inspection. During the first week,
inspectors obtain and review documentation, and familiarize themselves with a plant’s
cyber security program, personnel, and layout. During the second week onsite, NRC




                                              2
                                              Audit of NRC’s Cyber Security Inspection Program for Nuclear Power Plants



teams perform followup and verification tasks, and present conclusions of their work to
licensees. In cases where inspection teams identify tentative findings, they present the
findings to licensees during the second inspection week, and then submit the findings
for review by NRC’s Security Issues Forum. 1

NRC has allocated 1.5 Full Time Equivalents each to Regions I, III, and IV for cyber
security inspections; Region II has been allocated 2 Full Time Equivalents because of
its additional responsibility for new reactor construction inspections. Region-based
teams are supported by headquarters staff as well as NRC cyber security contractors.
As of December 2013, NRC had conducted 21 cyber security inspections among all 4
regions. Each 2-week inspection for Milestones 1-7 requires approximately 64 hours.

NRC staff members have developed a new draft Temporary Instruction to be used in
Milestone 8 pilot inspections, which are planned to begin in the spring of Calendar Year
2015.

OBJECTIVE
The audit objective was to determine the adequacy of NRC’s cyber security inspection
program for nuclear power plants.

RESULTS

The audit determined that NRC has adequate management controls in place for the
cyber security inspection program. 2 Although OIG did not identify any findings or make
any recommendations, this report describes specific challenges related to resource
management and inspection guidance as NRC moves toward full implementation of its
cyber security inspection program.

NRC Cyber Security Inspection Program Has Adequate Management Controls

The Cyber Security Rule took effect in 2009 and established regulatory requirements for
the nuclear power industry. Subsequent to the rule, NRC:

     •    Developed, in consultation with industry, an interim inspection program based on
          technical milestones.
1
  NRC created the Security Issues Forum to provide a means for regional and headquarters staff to discuss security findings and to
promote regulatory consistency. NRC is currently paneling all cyber security inspection findings through the Security Issues Forum
to ensure proper handling and use of enforcement discretion before final disposition of findings.

2
 Management controls include organizational structure and delegation of authority, human capital management, program
monitoring, and communication with internal and external stakeholders.



                                                                3
                                                Audit of NRC’s Cyber Security Inspection Program for Nuclear Power Plants



     •    Created a preliminary inspector training program for headquarters- and region-
          based staff.

     •    Performed pilot inspections at nuclear power plants and used those inspections
          to test and develop interim inspection guidance.

     •    Created a Cyber Security Directorate within the Office of Nuclear Security and
          Incident Response to consolidate program management in a single organization
          at NRC.

     •    Issued multiple supplementary guidance documents for use by NRC staff and
          licensees.

     •    Engaged industry stakeholders through conferences and staff meetings.


Resource Management and Guidance Challenges as the Program Moves Into Full
Implementation

Resource Challenges

Milestone 8 will expand the current scope of cyber security inspections and create
resource management challenges for NRC. Currently, NRC’s inspection scope is
limited to critical digital components and systems3 associated with target set
equipment. 4 Milestone 8 inspections will expand inspection scope to cover all critical
digital components and systems with a safety, security, and emergency preparedness
function. In addition, NRC will begin inspecting “balance of plant” equipment, 5 which
traditionally falls under Federal Energy Regulatory Commission jurisdiction. Although
NRC provided initial cyber security training to inspectors in 2012, establishment of a
formalized cyber security inspection training program has been delayed, due in part to




3
 NRC guidance refers to “critical digital assets,” which are defined as digital assets that must be protected against cyber attacks in
accordance with 10 Code of Federal Regulations 73.54.
4
  A target set is defined as a minimum combination of equipment or operator actions that, if prevented from performing their
intended safety function or prevented from being accomplished, would likely result in radiological sabotage. Specifically, this entails
significant core damage or a loss of coolant and exposure of spent fuel, barring extraordinary actions by plant operators.

5
  “Balance of plant” refers to the interface between a power plant and the electrical grid, such as electrical distribution equipment
leading out to a plant’s first inter-tie with the offsite distribution system.




                                                                   4
                                              Audit of NRC’s Cyber Security Inspection Program for Nuclear Power Plants



funding issues. 6 In addition, NRC staff cited recruitment and retention as challenges,
with several inspectors having retired or become eligible for retirement in 2013. NRC
managers must balance these issues with inspection requirements for other programs,
particularly at NRC regional offices, where inspectors also work in other oversight
programs like fire protection and physical security. Recruiting, retaining, and training
adequate numbers of inspectors with appropriate skills, and determining the appropriate
level of contractor support for inspections, is important to ensuring that NRC inspection
teams are adequately staffed to conduct Milestone 8 inspections thoroughly and
consistently in accordance with NRC standards.

Guidance Challenges

NRC faces challenges as it develops guidance for use by inspectors as well as
licensees. In particular, sampling guidance for inspectors will become especially
important with the expanded scope of Milestone 8 inspections. Sound sampling
methodology can help inspectors perform thorough inspections and reduce reliance on
professional judgment in sample selection. For instance, some staff told auditors that
they did not understand the basis for the current sampling methodology, while others
said that sample selection depends considerably on professional judgment and time
available to perform inspection work. NRC is working to address this issue, in part
through endorsement of industry-developed guidance for “consequence based analysis”
of critical digital assets. Further, regulatory guidance that clearly articulates NRC’s
regulatory position is important to prevent misinterpretation by licensees of regulatory
standards.

During early Milestone 1-7 inspections, some licensee performance problems were
reportedly attributable to lack of alignment between industry and NRC guidance, as well
as misinterpretation by licensees of key technical definitions. Licensees bear
considerable implementation costs, and want assurance that their cyber security
investments help them satisfy regulatory commitments. Creating inspection guidance is
an iterative process, and using lessons learned from pilot inspections is critical to
developing guidance that helps inspectors do their work effectively while facilitating
licensee compliance with NRC regulations. NRC can thus enhance the transparency of
Milestone 8 inspections and foster regulatory stability by issuing clear guidance that
incorporates lessons learned from prior inspections.


6
  NRC’s Technical Training Center plans to begin a training needs assessment in October 2014, and will develop a training program
for NRC inspectors based on results of this assessment. The new cyber security inspection training program is projected to be ready
by summer 2015.




                                                                5
                               Audit of NRC’s Cyber Security Inspection Program for Nuclear Power Plants



CONCLUSION

OIG conducted this audit to determine the adequacy of NRC’s cyber security inspection
program for nuclear power plants. Through interviews with NRC staff, analysis, and
direct observation, OIG auditors determined that NRC has adequate management
controls in place for the cyber security inspection program. Therefore, OIG makes no
recommendations.

AGENCY COMMENTS

An exit conference was held with the agency on April 25, 2014. Prior to this meeting, a
discussion draft was distributed to the agency for comment. Agency staff had no formal
comments for inclusion in this report.

SCOPE AND METHODOLOGY

To address the audit objective, auditors reviewed and analyzed pertinent law,
regulations, authoritative guidance, NRC policies and procedures, inspection reports,
and prior relevant NRC OIG reports. Guidance reviewed included the following:

      Government Accountability Office Standards for Internal Control in the Federal
       Government.

      Title 10 Code of Federal Regulations, Part 73, Section 73.54.

      Management Directive 11.1, NRC Acquisition of Supplies and Services.

      Inspection Manual Chapter 1245, Qualification Program For Operating Reactor
       Programs.

      Temporary Instruction 2201/004, Inspection of Implementation of Interim Cyber
       Security Milestones 1-7.

      Regulatory Guide 1.152, Criteria for Use of Computers in Safety Systems of
       Nuclear Power Plants.

      Regulatory Guide 5.71, Cyber Security Programs for Nuclear Facilities.

      NRC Security Frequently Asked Questions for Milestones 1-7.



                                              6
                                Audit of NRC’s Cyber Security Inspection Program for Nuclear Power Plants



      National Institute of Standards and Technology Special Publication 800-53
       Revision 4, Security and Privacy Controls for Federal Information Systems and
       Organizations.

      Nuclear Energy Institute 08-09, Cyber Security Plan for Nuclear Power Reactors.

OIG auditors interviewed managers, inspectors, and other program staff from NRC
headquarters and all four NRC regional offices, both in person and by telephone, to gain
an understanding about the qualifications of the inspectors and management staff for
cyber security inspections. OIG interviewed NRC staff responsible for inspection
training to assess the agency’s progress in formalizing the cyber security inspection
training program. OIG interviewed industry representatives and licensee personnel to
gather external perspectives on program performance and NRC management’s
receptivity to industry concerns. OIG also reviewed NRC contract documentation for
cyber security technical support. During this audit, OIG observed cyber security
inspections at two nuclear power plants: Quad Cities Nuclear Power Station in Cordova,
IL, and Vogtle Electric Generating Plant in Waynesboro, GA. Prior to starting this audit,
OIG attended cyber security inspection training provided to NRC staff at Idaho National
Laboratory and observed cyber security inspections at Calvert Cliffs Nuclear Power
Plant in Lusby, MD, and at Oconee Nuclear Station in Oconee County, SC.

OIG conducted this performance audit from October 2013 through March 2014 at NRC
headquarters in Rockville, MD, and at licensee facilities. Internal controls related to the
audit objective were reviewed and analyzed. Throughout the audit, auditors were aware
of the possibility or existence of fraud, waste, or abuse in the program. We conducted
this performance audit in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective. The audit was conducted by Beth Serepca, Team Leader; Paul Rades, Audit
Manager; Ziad Buhaissi, Senior Auditor; and Neil Doherty, Senior Analyst.




                                               7
